      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




August 25, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Claims for Home Blood-Glucose Test Strips and Lancets—
               Durable Medical Equipment Medicare Administrative Contractor for
               Jurisdiction A (A-09-08-00043)


Attached, for your information, is an advance copy of our final report on Medicare claims for
home blood-glucose test strips and lancets for the durable medical equipment Medicare
administrative contractor for Jurisdiction A. We will issue this report to NHIC, Corp., within
5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-4558 or through email at Robert.Vito@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector for Audit Services, Region IX, at (415) 437-8360 or through
email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-08-00043.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




August 30, 2010

Report Number: A-09-08-00043

Ms. Anne Bockhoff Dalton
Vice President
NHIC, Corp.
75 Sgt. William B. Terry Drive
Hingham, MA 02043

Dear Ms. Dalton:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Claims for Home Blood-Glucose Test
Strips and Lancets—Durable Medical Equipment Medicare Administrative Contractor for
Jurisdiction A. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact James Kenny, Audit Manager, at (415) 437-8370 or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-08-00043 in all correspondence.

                                             Sincerely,



                                             / Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Anne Bockhoff Dalton


cc:
Ms. Jennifer Otten
American Society of Quality Certified Manager of Quality/
  Organizational Excellence Quality Manager
NHIC, Corp.

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



REVIEW OF MEDICARE CLAIMS FOR
    HOME BLOOD-GLUCOSE
   TEST STRIPS AND LANCETS

 DURABLE MEDICAL EQUIPMENT
  MEDICARE ADMINISTRATIVE
      CONTRACTOR FOR
       JURISDICTION A



                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-09-08-00043
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers home blood-glucose test strip and lancet supplies (test strips and lancets) that
physicians prescribe for diabetics. The Centers for Medicare & Medicaid Services (CMS)
contracts with four durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for test strips and/or lancets. The amount
allowed for payment is equal to the lesser of the Medicare fee schedule amount or the amount
charged by a DME supplier. Medicare pays the beneficiary or the DME supplier the amount
allowed for payment, less the beneficiary share (i.e., deductibles and coinsurance).

The quantity of test strips and lancets that Medicare covers depends on the beneficiary’s usual
medical needs. Medicare utilization guidelines allow up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. To be
reimbursed for a claim for any quantity of test strips and lancets, the DME supplier is required to
maintain (1) a physician order containing the items to be dispensed, the specific frequency of
testing, and the physician’s signature with the date and (2) proof of delivery. The DME supplier
may refill an order only when the beneficiary has nearly exhausted the previous supply and
specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the treating physician must have seen the patient and
evaluated the patient’s diabetic control within 6 months before ordering the quantity of supplies
in excess of the guidelines.

NHIC, Corp. (NHIC), the DME MAC for Jurisdiction A, allowed for payment $225 million in
Medicare Part B claims for test strips and lancets for calendar year (CY) 2007. We focused our
review on high utilization claims. To identify these claims, we analyzed the information
submitted by DME suppliers on the Medicare claim forms. We did not verify the accuracy of the
claim information. We estimated that NHIC allowed for payment $95 million for the claims that
we identified as high utilization claims.

OBJECTIVE

Our objective was to determine whether high utilization claims for test strips and/or lancets that
NHIC allowed for payment were supported in accordance with Medicare documentation
requirements.




                                                  i
SUMMARY OF FINDINGS

Of the 100 sampled claims for test strips and/or lancets, 30 were supported in accordance with
Medicare documentation requirements. However, the remaining 70 claims were not supported
because each claim had one or more deficiencies:

   •   The quantity of supplies that exceeded utilization guidelines was not supported with
       documentation indicating the specific reason for the additional supplies, the actual
       frequency of testing, or the treating physician’s evaluation of the patient’s diabetic
       control within 6 months before ordering the supplies (55 claims).

   •   There was no documentation supporting that refill requirements had been met (27
       claims).

   •   Physician orders were missing or incomplete (24 claims).

   •   Proof-of-delivery records were missing (seven claims).

For CY 2007, based on our sample results, we estimated that NHIC inappropriately allowed for
payment approximately $49.2 million in claims for test strips and/or lancets that we identified as
high utilization claims. Of this amount, we estimated that NHIC inappropriately paid
approximately $39.2 million to DME suppliers.

NHIC made improper payments to DME suppliers because NHIC did not have controls to ensure
that claims for test strips and lancets complied with certain Medicare documentation
requirements. Specifically, NHIC did not have system edits to identify, and review when
necessary, high utilization claims. In addition, NHIC did not have system edits to identify claims
with overlapping service dates for the same beneficiary. This billing pattern caused NHIC to
allow payment for claims when beneficiaries had not nearly exhausted previously dispensed test
strips and/or lancets.

NHIC could have saved Medicare an estimated $39.2 million for CY 2007 if it had controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
NHIC:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates; and



                                                ii
   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those DME suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.

AUDITEE COMMENTS

In its written comments on our draft report, NHIC provided information on actions that it had
taken to address our recommendations. NHIC’s comments are included in their entirety as
Appendix E.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Program ................................................................................................1
              Durable Medical Equipment ................................................................................1
              National and Local Coverage Determinations .....................................................1
              Home Blood-Glucose Test Strip and Lancet Supplies ........................................2
              NHIC, Corp. .........................................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................5

          UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS ........................5
               Lack of Documentation for Quantities in Excess of Utilization Guidelines .......5
               Lack of Documentation To Support Refills of Supplies ......................................7
               Missing or Incomplete Physician Orders ............................................................8
               Missing Proof-of-Delivery Records .....................................................................9

          EFFECT OF UNALLOWABLE CLAIMS .....................................................................9

          LACK OF CONTROLS ..................................................................................................9

          RECOMMENDATIONS ...............................................................................................10

          AUDITEE COMMENTS...............................................................................................10

OTHER MATTERS ................................................................................................................10

          INCORRECT MODIFIER.............................................................................................10

          INCORRECT UNIQUE IDENTIFICATION NUMBER .............................................11

APPENDIXES

          A: FRAME SAMPLE DESIGN AND METHODOLOGY

          B: FRAME SAMPLE RESULTS AND ESTIMATES

          C: ERROR SAMPLE DESIGN AND METHODOLOGY


                                                                    iv
D: ERROR SAMPLE RESULTS AND ESTIMATES

E: AUDITEE COMMENTS




                           v
                                              INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Durable Medical Equipment

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). DMEPOS includes
items such as wheelchairs, hospital beds, oxygen tents, and medical supplies. Section
1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item be reasonable
and necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. Pursuant to the
Statement of Work, the DME MACs’ responsibilities included, but were not limited to,
(1) receiving Medicare Part B claims from DME suppliers and beneficiaries within their
jurisdictions, (2) performing edits 1 on these claims to determine whether they are complete and
reimbursable, (3) calculating Medicare payment amounts and remitting payments to the
appropriate parties, and (4) educating DME suppliers on Medicare requirements and billing
procedures.

The Statement of Work was modified to require the DME MACs to perform medical reviews as
of March 1, 2008. Medical reviews include the collection of information and review of medical
records to ensure that Medicare pays only for services that meet all Medicare coverage, coding,
and medical necessity requirements. The amount allowed for payment is equal to the lesser of
the Medicare fee schedule amount or the amount charged by a DME supplier. Medicare pays the
beneficiary or the DME supplier the amount allowed for payment, less the beneficiary share (i.e.,
deductibles and coinsurance).

National and Local Coverage Determinations

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and


1
 An edit is programming within the standard claims processing system that selects certain claims; evaluates or
compares information on the selected claims or other accessible sources; and, depending on the evaluation, takes
action on the claims, such as paying them in full, paying them in part, or suspending them for manual review.


                                                         1
generally outline the conditions under which a service or device is considered covered. MACs
are required to follow NCDs.

A Local Coverage Determination (LCD) is a decision by a Medicare contractor, such as a MAC
or program safeguard contractor, whether to cover a particular item or service on a
contractorwide basis in accordance with section 1862(a)(1)(A) of the Act. Medicare contractors
may establish or adopt LCDs when there is no NCD or when they need to further define an
NCD. LCDs must be consistent with all statutes, rulings, regulations, and national coverage,
payment, and coding policies.

Home Blood-Glucose Test Strip and Lancet Supplies

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strip and lancet supplies (test strips and lancets) that physicians
prescribe for diabetics, whether they are insulin-treated or non-insulin-treated. The patient, using
a disposable sterile lancet, draws a drop of blood, places it on a test strip, and inserts it into a
home blood-glucose monitor to obtain a reading of the blood-sugar level. DME suppliers
provide test strips and lancets to beneficiaries.

The NCD for home blood-glucose monitors specifies coverage of test strips and lancets for
patients who meet certain conditions and use home blood-glucose monitors to better control their
glucose levels by frequently checking those levels and appropriately contacting their attending
physicians for advice and treatment. 2 However, the NCD does not specify utilization guidelines
and documentation requirements for test strips and lancets.

To establish utilization guidelines and documentation requirements for test strips and lancets,
DME MACs either established or adopted LCDs, which state that the quantity of test strips and
lancets that Medicare covers depends on the beneficiary’s usual medical needs. The LCD for
each DME MAC further states that Medicare covers up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. 3

To be reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is
required to maintain (1) a physician order containing the items to be dispensed, the specific
frequency of testing, and the physician’s signature with the date and (2) proof of delivery. The
DME supplier may refill an order only when the beneficiary has nearly exhausted the previous
supply and specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the treating physician must have seen the patient and

2
 Medicare National Coverage Determinations Manual, Pub. No. 100-03, chapter 1, section 40.2, effective
June 19, 2006.
3
    Medicare considers 50 test strips as 1 unit and 100 lancets as 1 unit.


                                                              2
evaluated the patient’s diabetic control within 6 months before ordering the quantity of supplies
in excess of the guidelines.

NHIC, Corp.

NHIC, Corp. (NHIC), a wholly owned subsidiary of EDS Corporation, has been the DME MAC
for Jurisdiction A since July 1, 2006. NHIC’s main office is located in Hingham, Massachusetts,
through which it serves Medicare beneficiaries residing in Connecticut, Delaware, the District of
Columbia, Maine, Maryland, Massachusetts, New Hampshire, New Jersey, New York,
Pennsylvania, Rhode Island, and Vermont.

NHIC allowed for payment $225 million in Medicare Part B claims for test strips and/or lancets
for calendar year (CY) 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high utilization claims for test strips and/or lancets that
NHIC allowed for payment were supported in accordance with Medicare documentation
requirements.

Scope

We focused our review on high utilization claims for test strips and/or lancets for CY 2007. To
identify these claims, we analyzed the information submitted by DME suppliers on the Medicare
claim forms. We did not verify the accuracy of the claim information. 4 We estimated that NHIC
allowed for payment $95 million for the claims that we identified as high utilization claims. (See
Appendixes A and B.)

We did not review the overall internal control structure of NHIC. Rather, we limited our review
of internal controls to those controls that were significant to the objective of our audit.

We performed our review from August 2008 to February 2010 and conducted fieldwork at
NHIC’s offices in Hingham, Massachusetts, and Los Angeles, California.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    reviewed the LCD adopted by NHIC;

4
  During our audit, we determined that some claims we had identified as high utilization claims were in fact within
the Medicare utilization guidelines based on our review of the beneficiaries’ medical records and additional analysis
of the claim information.


                                                          3
    •   reviewed the Statement of Work prepared by CMS for the administration of
        DMEPOS;

    •   reviewed NHIC’s policies and procedures for processing Medicare claims for test
        strips and lancets;

    •   interviewed NHIC officials to obtain an understanding of its Medicare claim
        processing procedures for test strips and lancets;

    •   obtained from the CMS National Claims History (NCH) files NHIC’s Medicare
        Part B claims for test strips and/or lancets with service dates ending in CY 2007
        and removed any service line in which the amount allowed for payment was less
        than the lowest nationwide Medicare Part B fee schedule amount in CY 2007
        ($32.74 for test strips and $10.83 for lancets);

    •   created a sampling frame from the NCH data and randomly selected a sample of
        500 Medicare beneficiaries to estimate the number of high utilization claims that
        NHIC allowed for payment (Appendixes A and B);

    •   randomly selected a sample of 100 high utilization claims 5 to estimate the
        amounts that NHIC allowed for payment and paid to DME suppliers for claims
        that were not supported in accordance with Medicare documentation requirements
        (Appendixes C and D);

    •   obtained medical records and other documentation from DME suppliers and
        physicians for the 100 sampled claims;

    •   reviewed medical records and other documentation to determine whether each of the 100
        sampled claims was supported in accordance with Medicare documentation requirements;
        and

    •   shared the results of our review with NHIC.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




5
 Of the 100 claims, 17 claims were within the Medicare utilization guidelines based on our review of the
beneficiaries’ medical records and additional analysis of the claim information.


                                                         4
                                 FINDINGS AND RECOMMENDATIONS

Of the 100 sampled claims for test strips and/or lancets, 30 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 70 claims were not
supported because each claim had one or more deficiencies. For CY 2007, based on our sample
results, we estimated that NHIC inappropriately allowed for payment approximately
$49.2 million in claims for test strips and/or lancets that we identified as high utilization claims.
Of this amount, we estimated that NHIC inappropriately paid approximately $39.2 million to
DME suppliers.

Table 1 summarizes the deficiencies noted and the number of claims that contained each type of
deficiency.

                          Table 1: Summary of Deficiencies in Sampled Claims

                                                                                         No. of Claims With
                            Type of Deficiency                                              Deficiencies 6
    Lack of Documentation for Quantities in Excess of Utilization                                55
    Guidelines
    Lack of Documentation To Support Refills of Supplies                                        27
    Missing or Incomplete Physician Orders                                                      24
    Missing Proof-of-Delivery Records                                                            7

NHIC made improper payments to DME suppliers because NHIC did not have controls to ensure
that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, NHIC did not have system edits to identify, and review when
necessary, high utilization claims. In addition, NHIC did not have system edits to identify claims
with overlapping service dates for the same beneficiary. This billing pattern caused NHIC to
allow payment for claims when beneficiaries had not nearly exhausted previously dispensed test
strips and/or lancets.

UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS

Lack of Documentation for Quantities in Excess of Utilization Guidelines

For a quantity of test strips and lancets in excess of the utilization guidelines, LCD L11530
requires that the treating physician has documented in the medical records the specific reason for
the additional supplies.

LCD L11530 also requires that when a DME supplier refills a physician order for a quantity of
test strips and lancets in excess of the utilization guidelines, “[T]here must be documentation in
the physician’s records (e.g., a specific narrative statement that adequately documents the
frequency at which the patient is actually testing or a copy of the beneficiary’s log) or in the

6
    The total exceeds 70 because 44 of the 70 claims contained more than 1 deficiency.


                                                           5
supplier’s records (e.g., a copy of the beneficiary’s log) that the patient is actually testing at a
frequency that corroborates the quantity of supplies that have been dispensed.”

Finally, LCD L11530 states that the treating physician must have evaluated the patient’s diabetic
control within 6 months before ordering the quantity of test strips and lancets in excess of the
utilization guidelines.

For 55 of the 100 sampled claims, the beneficiary’s medical records did not have the required
documentation to support a quantity of supplies in excess of the utilization guidelines.

No Documentation of Specific Reason for Additional Supplies

For 46 of the 55 claims, the beneficiary’s medical records did not indicate a specific reason for
the additional supplies. For example, for one claim, a DME supplier provided a copy of a
physician order indicating a testing frequency of four times a day for a non-insulin-treated
patient. The utilization guidelines for a non-insulin-treated patient specify a quantity of supplies
indicating a testing frequency of approximately once a day. However, the patient’s medical
records did not indicate a specific reason for the additional supplies.

No Documentation of Actual Testing Frequency

For 39 of the 55 claims, neither the physician’s nor the supplier’s records contained
documentation supporting that the beneficiary was actually testing at a “frequency that
corroborates the quantity of supplies that have been dispensed.” For example, for one claim, a
DME supplier dispensed 11 units of test strips and 6 units of lancets for an insulin-treated
patient, which would be the quantity for a testing frequency of approximately six times a day.
This testing frequency corresponded to the physician order, which was prepared by the DME
supplier on a preprinted form and signed by the physician. However, neither the physician nor
the DME supplier maintained records documenting that the patient was actually testing six times
a day, such as a specific narrative statement from the physician or a copy of the beneficiary’s
log.

No Documentation of Treating Physician’s Evaluation of Patient’s Diabetic Control

For 6 of the 55 claims, the beneficiary’s medical records did not indicate that the treating
physician evaluated the patient’s diabetic control within 6 months before ordering the quantity of
supplies in excess of the utilization guidelines. For example, a DME supplier submitted a claim
for test strips provided to a non-insulin-treated patient based on a physician order signed
November 8, 2006. The physician order indicated a testing frequency of twice a day, which was
in excess of the utilization guidelines. When we contacted the physician’s office, we were told
that the physician did not see the patient on November 8, 2006, and that the last time the
physician saw the patient was November 28, 2005, which was almost 1 year before the date of
the physician order.




                                                   6
Lack of Documentation To Support Refills of Supplies

The Medicare Program Integrity Manual (the Manual), Pub. No. 100-08, chapter 4, section
4.26.1, states that, when a DME supplier refills an original order, the DME supplier must contact
the beneficiary before dispensing the refill. Further, the Manual states: “For subsequent
deliveries of refills, the supplier should deliver the DMEPOS product no sooner than
approximately 5 days prior to the end of usage for the current product.”

LCD L11530 states that the DME supplier may not dispense test strips and lancets until the
beneficiary has nearly exhausted the previously dispensed supplies. In addition, a beneficiary or
the beneficiary’s caregiver must specifically request the refill of test strips and/or lancets before
the DME supplier dispenses supplies to the beneficiary.

For 27 of the 100 sampled claims, DME suppliers did not have documentation to support that
refill requirements had been met.

Previously Dispensed Supplies Not Nearly Exhausted

For 18 of the 27 claims, DME suppliers dispensed test strips and/or lancets when the
beneficiaries had not nearly exhausted the previously dispensed supplies. Of the 18 claims, 13
claims had multiple DME suppliers that had dispensed test strips and/or lancets for the same
beneficiary with overlapping service dates. In one instance, five DME suppliers had billed
Medicare for claims with overlapping service dates for the same beneficiary. The beneficiary’s
physician had ordered a testing frequency of once a day, which required two units of test strips
for a 3-month period. As illustrated in Table 2, the DME supplier for the selected sample claim
dispensed two units of test strips and submitted a claim to NHIC for service dates covering the
period September 11 through December 11, 2007. In addition, four other DME suppliers
submitted claims to NHIC for the same beneficiary covering service periods from June 25
through December 26, 2007. NHIC allowed payment for all of these claims.

          Table 2: Multiple DME Suppliers’ Billing of a Beneficiary’s Test Strips

                                                                               Units of Test
              DME Supplier                       Service Dates                    Strips
       1                                  06/25/2007      09/24/2007                 6
       2                                  09/10/2007      12/09/2007                 2
       3 (Sample Claim)                   09/11/2007      12/11/2007                 2
       4                                  09/24/2007      12/23/2007                 2
       5                                  09/27/2007      12/26/2007                 6

Refills Not Specifically Requested

For 9 of the 27 claims, the beneficiary or the beneficiary’s caregiver had not specifically
requested the refill before the supplies were dispensed. For example, for one claim, a DME
supplier did not have documentation supporting the specific refill request from the beneficiary or
the beneficiary’s caregiver before it dispensed four units of test strips and two units of lancets on


                                                  7
July 19, 2007. When we requested the documentation, the DME supplier submitted a refill
request form, which was signed by the beneficiary on July 27, 2008. 7

Missing or Incomplete Physician Orders

Section 1833(e) of the Act requires that providers furnish DME MACs with necessary
information to receive payment for services provided to Medicare beneficiaries.

The Manual, chapter 5, section 5.2.1, requires that the DME supplier obtain an order from the
treating physician before dispensing supplies to a Medicare beneficiary. The Manual, chapter 5,
sections 5.2.2 and 5.2.3, provide that, when a DME supplier dispenses items based on a verbal
order, the DME supplier must have a written order in its records before submitting a claim to the
DME MAC.

LCD L11530 states: “An order for each item billed must be signed and dated by the physician
who is treating the patient’s diabetes, kept on file by the supplier, and made available upon
request.” Further, the LCD requires that the order for test strips and lancets include (1) the
specific frequency of testing, (2) the treating physician’s signature, and (3) the date of the
treating physician’s signature.

For 24 of the 100 sampled claims, DME suppliers submitted claims when physician orders were
missing or incomplete.

Missing Physician Orders

For 18 of the 24 claims, the DME suppliers did not have written physician orders. For 14 of
these claims, the DME suppliers did not provide copies of the written orders. For example, when
we contacted a DME supplier to obtain a copy of the order for one of the claims, an official
responded: “The billing was incorrect and reimbursement must be made. The billing person
involved is no longer employed by our company.” For the remaining four claims, the DME
suppliers had documentation of verbal orders from the treating physicians but did not have
written orders. The physician records did not contain copies of written orders or references to
them.

Incomplete Physician Orders

For 6 of the 24 claims, the DME suppliers had physician orders without required elements,
including the specific frequency of testing, the physician signature, and the date of the physician
signature.

    •   For four claims, copies of the physician orders did not indicate the specific frequency of
        testing. Instead, they indicated either “as directed” or the quantity of supplies (e.g., “100
        test strips”).


7
 The Medicare claims data showed that the DME supplier dispensed to the beneficiary four units of test strips and
two units of lancets on January 19, April 19, and July 19, 2007.


                                                         8
   •   For one claim, the copy of the physician order did not have the physician’s signature.
       When we contacted the physician, he stated that he had never seen the beneficiary.

   •   For one claim, the copy of the physician order did not have the date of the physician’s
       signature. The physician’s records did not indicate that he had ordered the supplies.

Missing Proof-of-Delivery Records

Pursuant to 42 CFR § 424.57(c)(12), DME suppliers are required to maintain proof of delivery of
DME supplies provided to Medicare beneficiaries. The Manual, chapter 4, section 4.26, requires
that DME suppliers maintain proof-of-delivery documentation in their files for 7 years.

For 7 of the 100 sampled claims, DME suppliers did not maintain proof of delivery. When we
requested delivery records, the DME suppliers did not provide proof of delivery or provided
printouts from their computerized dispensing systems containing dispensing information that did
not correspond to the sampled claims. For example, for two of the claims, a DME supplier
provided computer printouts for prior claims. When we requested printouts for these claims, the
DME supplier informed us that it had already provided everything in response to our request for
documentation.

EFFECT OF UNALLOWABLE CLAIMS

For 70 of the items in our sample, DME suppliers’ high utilization claims for test strips and/or
lancets were not supported in accordance with Medicare documentation requirements. As a
result, NHIC allowed $6,889 in Medicare Part B payments for unallowable claims. Of this
amount, NHIC inappropriately paid $5,488 to DME suppliers.

For CY 2007, based on our sample results, we estimated that NHIC inappropriately allowed for
payment $49,214,902 in claims for test strips and/or lancets that we identified as high utilization
claims. Of this amount, we estimated that NHIC inappropriately paid $39,206,181 to DME
suppliers.

LACK OF CONTROLS

NHIC made improper payments to DME suppliers because NHIC did not have controls to ensure
that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, NHIC did not have system edits to identify, and review when
necessary, high utilization claims. The only edit that NHIC had for claims for test strips and/or
lancets was a “medically unlikely” edit, which rejected claims that had service dates covering a
range of more than 99 days. In addition, NHIC did not have system edits to identify DME
suppliers’ claims with overlapping service dates for the same beneficiary. This billing pattern
caused NHIC to allow payment for claims when beneficiaries had not nearly exhausted
previously dispensed test strips and/or lancets.




                                                 9
NHIC could have saved Medicare an estimated $39,206,181 for CY 2007 if it had had controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
NHIC:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates; and

   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those DME suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.

AUDITEE COMMENTS

In its written comments on our draft report, NHIC provided information on actions that it had
taken to address our recommendations. Regarding the first two recommendations, NHIC stated
that it had implemented system edits in April 2010 to identify high utilization claims and claims
that have overlapping service dates. Further, NHIC stated that it is currently performing several
supplier-specific prepayment reviews for test strip and/or lancet claims. Regarding the third
recommendation, NHIC stated that it has multiple ongoing efforts to enforce Medicare
documentation requirements, including working with the program safeguard contractor and
educating suppliers about the requirements. NHIC’s comments are included in their entirety as
Appendix E.

                                      OTHER MATTERS

We identified issues with DME suppliers’ use of modifiers and unique physician identification
numbers for test strip and/or lancet claims.

INCORRECT MODIFIER

LCD L11530 requires that a Medicare claim for test strips and/or lancets include the KX
modifier for insulin-treated patients and the KS modifier for non-insulin-treated patients.

For 11 of the 100 sampled claims, DME suppliers submitted claims with incorrect modifiers.
For example, a claim from one DME supplier for test strips included the KS modifier rather than
the KX modifier when the physician order indicated that the beneficiary was being treated with


                                                10
insulin. The documentation in the treating physician’s medical records also supported that the
beneficiary was being treated with insulin.

INCORRECT UNIQUE IDENTIFICATION NUMBER

Section 1833(q)(1) of the Act requires that a Medicare claim include the unique identification
number for the referring physician.

For 9 of the 100 sampled claims, DME suppliers submitted claims with incorrect unique
identification numbers for referring physicians. For example, a claim from one DME supplier
for lancets included an incorrect unique identification number for the referring (i.e., ordering)
physician. The beneficiary obtained an order for lancets from a new physician and submitted the
order to the DME supplier. However, the DME supplier claimed the lancets using the unique
identification number of the beneficiary’s former physician contained in its billing system.




                                               11
APPENDIXES
                                                                                        Page 1 of 2


           APPENDIX A: FRAME SAMPLE DESIGN AND METHODOLOGY

OBJECTIVE

To accomplish our audit objective, we reviewed a sample of claims (error sample) to determine
whether Medicare documentation requirements had been met and to estimate the effect of
noncompliance. The error sample included Medicare Part B claims for home blood-glucose test
strip and lancet supplies (test strips and lancets) that NHIC, Corp. (NHIC), allowed for payment
with quantities that exceeded Medicare utilization guidelines based on our analysis of claims
(high utilization claims). To estimate the effect of noncompliance, it was necessary to determine
the total number of high utilization test strip and/or lancet claims that NHIC allowed for
payment. However, because high utilization claims were not easily identifiable, we could not
determine the total number of high utilization test strip and/or lancet claims without significant
time and effort. Therefore, the objective of this sample was to estimate the number of high
utilization test strip and/or lancet claims that NHIC allowed for payment (frame sample).

POPULATION

The population consisted of high utilization claims. The population was limited to the Part B
claims included in the Centers for Medicare & Medicaid Services (CMS) National Claims
History file for calendar year (CY) 2007, updated as of December 2007.

SAMPLING FRAME

We extracted Medicare Part B claims for test strips and/or lancets (Healthcare Common
Procedure Coding System codes A4253 and A4259, respectively) with service dates ending in
CY 2007. We removed from the claims any service line in which the amount allowed for
payment was less than the lowest nationwide CY 2007 Medicare fee schedule amount ($32.74
for test strips and $10.83 for lancets). The result was a data file containing 2,212,691 claims for
test strips and/or lancets for 667,662 Medicare beneficiaries. This data file included claims with
all quantities of test strips and/or lancets.

To identify high utilization claims for test strips and/or lancets, we determined that an in-depth
analysis of each of the 2,212,691 claims in the data file was needed. However, because it was
not practical to analyze all of these claims, we used a random sample to estimate the total
number of and the amount allowed for payment for high utilization claims. The sampling frame
for the frame sample consisted of the 667,662 Medicare beneficiaries for whom the 2,212,691
test strip and/or lancet claims had been submitted to NHIC.

To identify high utilization claims for the frame sample, we analyzed the information submitted
by durable medical equipment (DME) suppliers on the Medicare claim form. We did not verify
the accuracy of the claim information. However, during our audit, we determined that some
claims we had identified as high utilization claims were in fact within the Medicare utilization
guideline limits based on our review of the beneficiaries’ medical records and additional analysis
of the claim information. Because it was not practical to obtain and review the medical records
for all beneficiaries with test strip and/or lancet claims, we considered a claim to be a high
                                                                                      Page 2 of 2


utilization claim based solely on the claim information submitted by DME suppliers. Further, we
did not perform additional analysis of all claims. As a result, the sampling frame of high
utilization claims contained claims in which the quantity of test strips and/or lancets was within
the Medicare utilization guideline limits.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a Medicare beneficiary with one or more claims for test strips and/or lancets
that NHIC allowed for payment.

SAMPLE SIZE

The sample size was 500 Medicare beneficiaries.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate a set of random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the sample units in the frame from 1 to
667,662. After generating 500 random numbers, we selected the corresponding frame items. No
frame sample unit was replaced.

CHARACTERISTICS TO BE MEASURED

For each sample unit, we obtained all the beneficiary’s claims for test strips and lancets and
analyzed the claim information submitted by DME suppliers to determine the number of high
utilization claims.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total number of claims that we identified as
high utilization claims that NHIC allowed for payment, as well as the amount allowed for
payment.
                   APPENDIX B: FRAME SAMPLE RESULTS AND ESTIMATES


                         Sample Results for Estimate of Total Number of Claims

   No. of
Beneficiaries
 With Test      No. of Claims
Strip/Lancet         for                                                     No. of Sampled
 Claims in      Beneficiaries        No. of         No. of Claims for       Beneficiaries That            No. of High
 Sampling       in Sampling       Beneficiaries         Sampled            Had High Utilization     Utilization Claims for
   Frame           Frame           in Sample         Beneficiaries               Claims             Sampled Beneficiaries

 667,662          2,212,691           500                   1,681                 186                       535


                      Sample Results for Estimate of Amount Allowed for Payment

     No. of
  Beneficiaries
   With Test         Amount Allowed                             Amount          No. of Sampled        Amount Allowed
  Strip/Lancet       for Payment by            No. of          Allowed for     Beneficiaries That    for High Utilization
   Claims in        NHIC in Sampling        Beneficiaries      Payment in           Had High         Claims for Sampled
Sampling Frame            Frame              in Sample           Sample        Utilization Claims        Beneficiaries

    667,662           $224,538,931                500           $179,527             186                  $70,833


                                   Estimates for High Utilization Claims
                          (Limits Calculated for a 90-Percent Confidence Interval)


                                                                         Estimated
                                                     Estimated            Amount
                                                    Total No. of         Allowed for
                                                      Claims              Payment
                              Point estimate            714,398            $94,585,045
                              Lower limit               604,778             75,463,143
                              Upper limit               824,019            113,706,947
                                                                                                       Page 1 of 2


             APPENDIX C: ERROR SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part B high utilization claims for test strips and/or lancets
that NHIC allowed for payment. The population was limited to the Part B claims included in
CMS’s National Claims History file for CY 2007, updated as of December 2007.

SAMPLING FRAME

The number of sample units in the sampling frame was unknown and was estimated by the
sample described in Appendixes A and B.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a high utilization claim for test strips and/or lancets.

SAMPLE SIZE

The sample size was 100 high utilization claims for test strips and/or lancets.

SOURCE OF RANDOM NUMBERS

We used the OAS statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the test strip and/or lancet claims in the
data file from 1 to 2,212,691. Using the random numbers in the order they were generated, we
matched each random number to the corresponding test strip and/or lancet claim. We analyzed
the claim corresponding to the first randomly generated number to determine whether the claim
was within the Medicare utilization guidelines. If the claim exceeded the utilization guidelines,
we included it in the sample as a high utilization claim. If the claim did not exceed the
guidelines, we replaced it with the claim corresponding to the next randomly generated number
and analyzed the newly selected claim. We continued this process until we had identified 100
high utilization claims. 1




1
 Of the 100 claims, 17 claims were within the utilization guidelines based on our review of the beneficiaries’
medical records and additional analysis of the claim information.
                                                                                    Page 2 of 2


ESTIMATION METHODOLOGY

Based on the results of this sample and the sample described in Appendixes A and B, we used
the OAS statistical software to estimate the (1) amount allowed for payment by NHIC for claims
that we identified as high utilization claims and were not supported in accordance with Medicare
documentation requirements and (2) amount that NHIC paid to DME suppliers for claims that we
identified as high utilization claims and were not supported in accordance with Medicare
documentation requirements.
               APPENDIX D: ERROR SAMPLE RESULTS AND ESTIMATES


                  Sample Results for Amount That NHIC Allowed for Payment

                                          No. of                              Value of
                                       Claims With          Value of         Unallowable
                    Sample Size        Deficiencies         Sample            Amount
                         100                 70              $11,993            $6,889


                    Sample Results for Amount That NHIC Paid to Suppliers

                                          No. of                              Value of
                                       Claims With          Value of         Unallowable
                    Sample Size        Deficiencies         Sample            Amount
                         100                69 1             $9,420             $5,488



                                Estimates of Unallowable Amounts
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                             Amount NHIC
                                              Allowed for            Amount NHIC
                                               Payment              Paid to Suppliers
                      Point estimate          $49,214,902             $39,206,181
                      Lower limit              37,333,868               29,693,533
                      Upper limit              61,095,935               48,718,828




1
  Of the 70 claims with deficiencies, payments for 69 claims were made to DME suppliers. The payment for the
remaining claim was made to the Medicare beneficiary.
                                                                                                                           Page 1 of 4


                           APPENDIX E: AUDITEE COMMENTS 




                C.IJ#S                                                                Durabl e Med ical Equipment
                                                                               Medicare Adm inistrati ve Contractor
                                                                                           Phone: (781) 741-3029



July 2, 2010


Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region IX
907'" Street, Suite 3-650
San Francisco, CA 94103

Attention: 	                 Lori A Ahlstrand
                             Regional Inspector General for Audit Services

Subject : OIG Review o f Medicare Claims for Home Blood-Glucose Test Strips and Lancets - Durable
Medical Equipment Medicare Administrative Contractor for Jurisdiction A. (Report Number A-09-0S­
00043)

Dear Ms. Ahlstrand :

NHIC appreciates the opportunity \0 wor k with the Office of Inspector General on this importaM issue
facing DME contractors. Please find below our response to the recommendations in the draft audit
report cited above.

l. 	 Recommendation
     Implement syst em edits to identify high utilization cla ims for test strips and/or lancets and work
     with CMS to develop cost-effective ways of determining which claims should be further reviewed
     for compliance with Medicare documentation requirements;

      NHIC Response
      NHIC agrees that this category represents a problem area in Medicare payments. Glucose testing
      supplies are a high priority item in NHICs Medical Review (MR) Strategy. NHIC implemented
      frequency editing by way of Accumula tion File Number (AfN) parameters in April 2010.

      Additionally, NHIC currently has several supplier-specific prepay complex reviews ongoing for
      glucose test ing supplies.

2. 	 Reco mmendation
     Implement system edi t s to identify claims for test strips and/or lancets that have overlapping
     service da t es;




                                                NUIC, Corp.
                                                                         --------
                                             7S Sgt. Wtlliam B. T~ Orl1l<l 

                                                 Hlngllam. MA O<W43 

                                                A eMS eONTIlACTOFl 




"""_ ........ .....::"""OIACCUS ......_ .                                                     ~"""' .... "" ..P·"""(>co1
~   __. ""'"   ~'10000                                                                        ".·,." ,,,u
                                                                                                              Page 2 of 4




OIG Audit A-09-08-00043 Response (page 2 of 4)

   NHIC Respon se
   The AFN editing detailed in t he first recommendation response would also encompass claims for
   test strips and/or lancets that have overlapping service dates.

3. Re commendation
   Enforce Medicare documentation requirements for claims for test strips and/or lancets by (1)
   identifying DME suppliers with a high volume of high utilization claims, (2) performing prep3yment
   reviews of those DME suppliers, and (3) referring them to the Office of Inspector General or eMS
   for further review or investigation when necessary.

   NHIC Response 

   NHIC has multiple ongoing efforts to enforce documentation requirements for these items: 


  • 	 The AFN editing detailed in the first recommend~tion response contributes to the enforcement of
      high utiliz~tion billings of these items. since services in excess of the AFN p~r~meters are denied.

  • 	 During the course of conducting MR ~ctivities, the MR te~m m~y identify potenti~1 fr~udulent or
      abusive ~ctivities. NHIC has established internal processes and referral procedures to alert the PSC
      to a potential fraudulent or ~busive Situa t ion. NHIC MR provides the following information to
      ensure that the PSC has complete background for the referral : supplier-specific data. referral date,
      referring NHIC analyst, description of identified problems, case development activities performed,
      dollar.; paid, and leadership approval. These procedures are incorpor~ted into our Joint Operating
      Agreement (JOA) with the PSC to ensure a join t understanding of responsibi lities.

  • 	 To further support the CERT error· rate reduction initiative, of which glucose testing supplies is a
      major contributor, NHIC developed the RAC Work Plan. The RAC Work Plan recommended
      Jurisdiction A CERT error categor ies to be addressed through post-pay comple x reviews: The NHIC
      RAC Work PI~n promotes the fiscal integrit y of Medicare Fee For Service (FFS) benefit
      ~dministration through the timely and comprehensive sharing of CERT error information with the
      RAC so that incorrect payments can be recovered . The RAC in Jurisdiction A accepted our
      recommendations and will incorporate them into their complex review plans.

  • 	 NHJC has established internal procedures in place to refer cases to the National Supplier
      Clearinghouse (NSC) Supplier Audit and Compliance Unit (SACU) department for issues of possible
    violation of supplier standards.

  • 	 NHIC has ~Iso implemented the following educ~tional interventions that re i nforce the Medicare
      documentation requirements for claims for test strips and/or lancets:

       • 	 NHIC has developed and posted on our w ebsite. very detailed letters that suppliers can
           provide to the prescribing physician that describe in detail the documentation requirements
           for common claims payment error OMEPOS ca tegories. "Dear Physician" letters have been
           published for multiple claims payment error categories. induding Glucose monitors and
           supplies. NHIC developed these letter; as a result of the many CERT and MR claim errors
           caused by the lack of physician medical record docu men t ation. The "Dear Physician" letter
           cle~rly and comp letely explains tha i the patient's medical record must contain sufficient
           informa tion about the patient's medical condition to substantiate the necessity for the type
           and quantity of items ordered and for the frequency of use or replacement (if applicable). The
                                                                                                              Page 3 of 4




OIG Audit A-09-08-00043 Response (page 3 of 4)

         "Dear Phvsician" letters can be viewed on our website at http://www.medicarenhic.
         com/dme/dmerc_,ert_rec.shtml .

       • 	 NHIC continued our innovative approaches to claims error rate reduction with the launching
           01 a monthly publication of th e common CERT errors. The March, April, and May 2010 CERT
           Errors List serve Articles discussed erro rs on glucose testing supply claims.


4. 	 Other Matters - Incorrect Modifier
     LCD lllS30 requires that a Medicare claim for test strips and/or lancets include the KX modifier for
    insulin-treated patients and the KS modifier for non-insulin-treated patients. For 11 of the 100
    sampled cla i ms, OME suppliers submitted claims with incorrect modi fiers. For example, a claim
    from one DME supplier for test stri ps included the KS modifier rather than the KX modifier when
    the physician order indicated that the beneficiary was being treated with i nsulin. The
    documentation in the treating physician's medical records also supported that the beneficiary was
    being treated with insulin,

    NHIC Response
    A claim submitted with a valid HCPCS code and modifier combination (such as KS or KX) proceeds
    through the claim adjudication process, if there is no prepay MR edit i n place. The issue of the
    incorrect modifier to identify whether the patient was insulin or noninsulin dependent would be
    detected through complex medical review activity. Absent performing a com ple~ medical review of
    every claim submitted with a KX modifier, the re is no electronic edit (or any other automated tool)
    that can determine if the supplier appended the incorrect modifier to denote insulin dependent or
    non·insulin dependent. The validation of the proper modifier wou ld be performed as part of the
    prepay complex medical review process.

    NHIC will reinforce the importance of using the correct KX or KS modifier through our outreach and
    education activities.

    NHIC will issue a li st serv article to suppliers reminding them of the importance of using the correct
    KX or KS modifier when billing for diabetic testing supplies.

S. 	 Other Matter.; -Incorrect Unique Identification Number
     Section 1833(q)(1) of the Act requires that a Medicare claim include th e unique identification
     number for the referring physician, For 9 of the 100 sampled claims, OME suppliers submitted
     claims with incorrect unique identifica tion numbers for re ferring physicians. For example, a claim
     from one OME supplier for lancets included an incorrect unique identification number for the
     referring (i.e., ordering) physician. The beneficiary obtained an order for lancets from a new
     physician and submitted the order to the OME supplier. However, the DME supplier claimed the
     lancets using the unique identification number of the beneficiary's former physician cont ained in its
     billing system.

    NHIC Response
    A claim submitted with a valid unique identification number for the referring physician proceeds
    through the claims adjudication process unless th ere is a prepay MR edit in place. Absent
    perfor ming a complex medical review of every claim submitted, there is no elec tronic edit (or any
    other automated t ool) that can determine if the supplier indicated the correct referring physician.
                                                                                                                 Page 4 of 4




OIG Audit A-09-08-00043 Response (page 4 of 4)

        The validation of the referr ing physician would be performed in the prepay complex medical review
        process de scribed in the previous response.

        NHIC will re inforce the importance of using the correct referring physician information through our
        outreach ilnd education activities. NHIC will issue a list serv article to suppliers reminding them of
        the importance of using the correct referring physician information.

If you have any questions about NHIC response, please contact Jennifer Otten, Manager of Audit &
Controls, in Chico, California at 530 -332 -1169 (or at jennifer.ottf'n@hp.com).

Sincerely.


S/Andrew Conn
NHIC OME MAC Program Director

cc: 	       Jennifer OUen, NHIC, Corp.
            Karen Grasso, NHIC, Corp.
            AmyA. Capece, NHIC, Corp.
            Paul Hughes, MD, NHIC, Co r p.
            Travis Moore, NHIC, Corp.
            Debbie Bach, NHIC, Corp.
            Martin Furman, CMS
